GR-80-98-007
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
ROSEBUD SIOUX POLICE DEPARTMENT 
ROSEBUD, SOUTH DAKOTA
 AUDIT REPORT NUMBER
GR-80-98-007
JANUARY 15, 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Rosebud Sioux Police Department, Rosebud, South
Dakota. The Rosebud Sioux Police Department received a grant of $1,728,680 to hire or
rehire 20 sworn police officers under the Universal Hiring Program (UHP). The purpose of
the additional officers is to enhance community policing efforts.
Due to the supplanting of grant funds, we are questioning $427,357, which was the
amount of funds received by the Rosebud Sioux Police Department at the time of our audit.
Also, based on the supplanting of grant funds, sworn officer position vacancies, and lack
of community policing, the remaining $1,301,323 in grant funds should be withheld as funds
to better use.
We found the following weaknesses with regard to meeting the grant conditions: 


- Requests of reimbursement and advance included unallowable year-end bonuses totaling
    $2,395.
- The number of positions budgeted decreased by 19 during FYs 1996 and 1997, supplanted
    by the grant funded positions. 
- Efforts to fill vacant officer positions have not been successful. Additionally, it
    appears that grant funded positions are not filled before locally funded positions.




- No formal written provisions had been made to retain the 20 police officer positions
    upon the expiration of the grant.
- The Rosebud Sioux Police Department did not submit the required Departmental Initial
    Report, Officer Progress Reports, and Annual Department Report to the COPS office. 
- Financial Status Reports were not submitted or were not submitted in a timely manner.
- Total program outlays and the federal share of outlays were overstated by $2,813 in
    the most recent Financial Status Report submitted to OJP. 
- The Rosebud Sioux Police Department had not implemented any of the community policing
    activities described in its grant application.
#####